FAA’S PROGRESS AND CHALLENGES
 IN MEETING FTI TRANSITION GOALS

      Federal Aviation Administration
        Report Number: AV-2008-089
      Date Issued: September 30, 2008
           U.S. Department of
                                                               Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FAA’s Progress and Challenges in                                     Date:    September 30, 2008
           Meeting FTI Transition Goals
           Federal Aviation Administration
           Report Number AV-2008-089

  From:    David A. Dobbs                                                            Reply to
                                                                                     Attn. of:   JA-1
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    Acting Federal Aviation Administrator

           This report presents the results of our follow-up audit of the Federal Aviation
           Administration’s (FAA) Telecommunications Infrastructure (FTI) program. FTI
           is intended to replace seven FAA-owned and -leased telecommunications
           networks with a single network to reduce operating costs. FTI is a mission-critical
           program because its network carries National Airspace System (NAS)
           telecommunication services (e.g., voice, radar, and flight data communications)
           for air traffic control (ATC) operations.

           In July 1999, FAA established the original program baseline to transition FTI into
           the NAS by September 2005. In July 2002, FAA awarded a contract to Harris
           Corporation to transition FTI into the NAS and to provide management and
           support functions for the FTI network. In December 2004, FAA re-baselined FTI,
           pushing the completion date to December 2007 and significantly increasing the
           program cost.

           In April 2006, we reported that FTI was unlikely to meet its December 2007
           completion date and that FAA needed to improve FTI management controls. 1 To
           determine whether FAA addressed our concerns, we began a follow-up review of
           the FTI program. The objectives of this review were to assess FAA’s progress in
           (1) developing a realistic master schedule and an effective FTI transition plan and
           (2) mitigating technical risks to ATC operations before activating FTI services and
           disconnecting existing telecommunications services (by coordinating activities and
           1
               OIG Report Number AV-2006-047, “FAA Telecommunications Infrastructure Program: FAA Needs To Take Steps
               To Improve Management Controls and Reduce Schedule Risks,” April 27, 2006. OIG reports and testimonies are
               available on our website: www.oig.dot.gov.


                                                                  i
verifying site-specific requirements). We also examined FAA’s progress in
responding to our April 2006 recommendations, including a recommendation that
the Agency independently validate FTI cost and benefit estimates. Exhibit A
details our audit scope and methodology. We performed our work in accordance
with generally accepted Government Auditing Standards as prescribed by the
Comptroller General of the United States.

In August 2006, FAA’s Joint Resources Council 2 (JRC) met and subsequently
approved a second re-baseline of FTI’s cost and schedule goals, which extended
the completion date for the FTI transition to December 2008 and increased overall
program costs by over $100 million (from $3.3 billion to $3.4 billion 3 ). FAA also
reduced the total number of NAS services to be transitioned to FTI from 25,294 to
20,033. Since FAA first established the cost and schedule baselines for FTI in
1999, the JRC has approved several significant changes (see table 1).

                           Table 1. History of FTI Program Changes
      Date         Purpose         FTI Sites          FTI         Planned          Program             Cost
                                   Planned          Services     Transition       Completion         Estimate
                                                    Planned      Completion          Date
                                                                    Date           Planned
    Jul. 1999      Establish          1,374           Not         Sept. 2005           2010         $1.9 Billion
                   Baseline                          Defined
    Dec. 2004        First            4,463          25,294        Dec. 2007           2017         $3.3 Billion
                  Re-baseline
    Sept. 2006      Second            4,053          20,033        Dec. 2008           2017         $3.4 Billion
                  Re-baseline
Source: FTI JRC Baseline Briefs and FTI National Implementation “Kickoff Team” Brief

Through the end of fiscal year (FY) 2007, we estimated that FAA cumulatively
spent just over $1.9 billion on the FTI program. FAA spent about $1.2 billion for
operating legacy telecommunications networks from 2002 to 2007. About
$300 million was for FTI transition efforts funded from the Facilities and
Equipment (F&E) account; another $445 million funded FTI operations costs from
the Operations and Maintenance account (operations). Unlike most acquisitions,
the majority of FTI is funded from the Operations account instead of the F&E
account (capital). For FY 2008, FAA estimates it will need $320 million to
support the program while continuing the FTI transition ($18.3 million to support
the FTI transition, $210 million to support FTI operations, and $91 million to
extend legacy network operations).


2
    The JRC is FAA’s senior decision-making body for approving major acquisition program funding and schedules.
3
    The $3.4 billion reflects the cost within the scope of “FTI Case,” which includes FTI facilities and equipment,
    operations and maintenance, and legacy operations costs affected by FTI. The “Base Case” reflects costs in the
    absence of FTI. According to FAA, cost avoidance is defined as the difference between the Base Case and the FTI
    Case.


                                                         ii
RESULTS IN BRIEF
Since we last reported, FAA has made significant progress with the FTI transition,
with 19,977 services cut over to operation as of March 31, 2008. FAA also
transitioned the costliest legacy network that FTI will replace, which will help to
control telecommunications costs. 4 Notwithstanding this important progress,
several areas remain critical watch items for decision makers as FAA moves
forward with FTI. These include shifting service requirements, the extent to
which expected cost savings will be realized, and efforts to mitigate risks to air
traffic operations—all of which have impacted FAA’s ability to meet FTI’s
original program goals.

A key issue is that FAA will not replace all networks by December 2008, as
originally planned. As a result, FAA will have to maintain existing equipment
much longer than expected (e.g., digital equipment to support long-range radars
and switching equipment to support high-altitude communications). The cost of
doing so and the impact on potential FTI benefits remain uncertain.

Additionally, even though the last baseline significantly reduced the number of
services planned for transition, this number has since climbed to 22,719. FAA
attributes the increase to “emerging requirements,” 5 among other issues, and
acknowledges that these will continue to increase, which will require adjustments
to the FTI master schedule.

Further, the master schedule does not include requirements for moving forward
with the Next Generation Air Transportation System (NextGen), which FAA
classifies as “future requirements.” We recognize that NextGen requirements are
uncertain and future telecommunications needs will initially be funded by other
programs. However, FAA will inevitably have to address these requirements
through adjustments to FTI or another effort.

FAA’s main goal for FTI was to reduce Agency operating costs. Yet, we found
that costs for FTI remain uncertain since FAA still has not validated cost and
benefit estimates as agreed after our 2006 report. We are concerned because
FAA’s last program baseline reduced the number of services planned but still
increased the overall program cost estimate by more than $100 million. As costs
escalate, FTI cost savings have eroded, with none achieved in FY 2007.

Finally, FAA facilities using FTI have experienced outages of primary and back-
up services, which have disrupted ATC operations. In addition, we found that,
FTI services are not meeting availability requirements or being restored within

4
    The largest and costliest network FTI will replace is the Leased Interfacility National Airspace System
    Communications System with over $600 million spent for operations from 2002 to 2007.
5
    These are requirements for new services, such as FAA’s Flight Service 21 program.


                                                     iii
contractual timeframes. As we reported in 2006, FAA must ensure that FTI
services avoid these problems by meeting diversity requirements (adequate
separation of primary and alternate services).

FAA has made significant progress with the FTI transition but will not
replace all networks as planned. After FAA added a year to FTI’s completion
date, revising it to December 2008, it began making progress toward transitioning
new services and replacing legacy systems. As of March 31, 2008, FAA replaced
four of the seven legacy systems with FTI, including the costliest of those, the
Leased Interfacility NAS Communications System (LINCS) network. Because the
LINCS network had been fully decommissioned, FAA reported that
March 31, 2008, would be the last time it would provide regular monthly reports
on the FTI transition status. However, FAA has deferred replacing the following
three networks beyond December 2008 due to technical challenges, such as
prematurely installed FTI equipment needing upgrades and lack of an engineering
solution to replace components for complex digital services:

    • The Data Multiplexing Network (DMN), which supports long-range radar
      services.
    • The National Airspace Data Interchange Networks Packet-Switched Network
      (NADIN-PSN), 6 which supports flight data and weather information services.
    • The Bandwidth Manager (BWM) network, which supports NAS and National
      Defense Program services (e.g., voice, radar, and data).

The full impact of FAA’s decision to defer transitioning these three networks is
still unknown, but it means that FAA will not possess an integrated suite of
services as originally planned. As a result, FAA must continue funding multiple
systems, which will have cost, benefit, and operational ramifications that have yet
to be determined. Currently, the FTI schedule does not yet reflect when the three
networks will be transitioned to FTI.

In addition, FAA must ensure that all NAS programs requiring FTI services are
included in FTI’s schedule. We found that the number of services planned for
transition to the FTI network continues to fluctuate. Although FAA planned to
transition 20,033 services to the FTI network, this number rose to 22,719 (as of
March 2008) due to emerging requirements and could still grow. Yet, as these
requirements emerge, FAA is not accounting for all of them in the FTI schedule.
For example, as of March 2008, the FTI master schedule did not include about
38 percent of needed Flight Service 21 (FS-21) 7 services. Moreover, key NextGen
6
    NADIN PSN is an X.25 packet-switched network that augments and functions in parallel with the NADIN Message-
    Switched Network. Packet-switching is a communications approach in which packets (discrete blocks of data) are
    routed between data link nodes shared with other network traffic.
7
    FS-21 is a new flight services operating system with 3 hubs and 16 continuing facilities.


                                                        iv
services, such as Automatic Dependent Surveillance-Broadcast (ADS-B) 8 and
System Wide Information Management (SWIM), 9 are not included in the FTI
schedule. FTI program officials previously reported that these requirements
would not be included in FTI’s schedule because their baselines were not finalized
or approved by FAA and were considered “future requirements.” However, both
programs now have established baselines, and FAA needs to add them to FTI’s
master schedule.

FAA has not validated FTI cost estimates, and the program costs and benefits
remain uncertain. The FTI program has experienced cost growth, and benefits in
terms of anticipated cost savings     Table 2. FTI Life-Cycle Cost Estimates
have eroded. In April 2006, we                   (Dollars in Millions)
recommended that FAA validate        Cost         JRC            JRC     Difference
all   program      estimates   to  Categories  Dec. 2004     Aug.   2006
                                  F&E            $ 310.2        $ 318.8        +$8.6
determine whether FTI is still Operations        $2,110.1       $1,954.4     -$155.7
cost beneficial.                  Legacy         $ 857.4        $1,117.3    +$259.9
                                                    Operations
In August 2006, the JRC’s              Total FTI    $3,277.7        $3,390.5 +$112.8
approval of the second FTI             Lifecycle
re-baseline was contingent upon Source: FTI Program Baseline Briefs
FAA’s validation of revised cost estimates. By September 2006, FAA’s
Independent Evaluation Review (IER) team completed its assessment of various
FTI cost elements, but did not validate the cost and benefit projections. Instead,
the IER raised concerns about some of the costs. For example, the IER reported
that the F&E baseline is masked by FTI business rules that allow F&E
expenditures to be funded by the Operations account. Although the FTI estimates
were not validated, the JRC still approved the new $3.4 billion estimate, which
added over $100 million to the overall program cost despite reducing the number
of services to be delivered (see table 2). We remain concerned about the accuracy
of FTI cost and savings estimates for a number of reasons.

    • First, FAA increased the F&E cost for FTI by $8.6 million. In addition, we
      have identified additional network engineering costs (capital costs) that were
      charged to Operations instead of the F&E account. We recommended in April
      2006 that FAA update FTI business rules to properly charge these activities to
      the F&E account. Although FAA concurred, we found that FTI’s true impact
      on the F&E baseline was masked by business rules that allowed F&E
      expenditures to be improperly charged to the operations account.


8
    ADS-B provides satellite-based technology that allows aircraft to broadcast their position to other aircraft and
    ground systems. ADS-B is a cornerstone technology for NextGen and has considerable potential for enhancing
    safety and boosting capacity.
9
    SWIM provides FAA with a web-based architecture that allows information sharing among airspace users. SWIM is
    a key transformational program for the development of NextGen.


                                                         v
     • Second, FAA predicated its investment in FTI on achieving savings through
       one consolidated telecommunications network. Now that the Agency has
       decided to indefinitely retain three legacy networks, it is imperative that FAA
       recalculate the legacy operations cost and determine the impact on FTI’s
       estimated cost savings. Further, FAA did not include about $200 million in
       prior operations costs, which were used to support the legacy networks, within
       the scope of the FTI program. When these costs are included, they increase the
       revised cost estimates for legacy operations (of $1.1 billion) by $57 million.
       FAA acknowledges that it did not include FY 2002 legacy operations costs in
       the updated baseline, but commented that the impact would be minimal.
       Nevertheless, in viewing the history of the FTI program, an accurate
       accounting of the legacy costs is important because delays with the FTI
       transition translate directly into reduced cost savings due to paying for legacy
       systems longer than planned.

     • Finally, expected savings have eroded, and considerable confusion exists
       about what level of savings will ultimately be realized. The extent of FTI’s
       cost savings is important because it is one of the few capital programs that
       promised to reduce operating costs. 10 When FAA first re-baselined the FTI
       program in 2004, the Agency estimated cost savings to be $672 million. At the
       second re-baseline in 2006, the JRC approved estimated savings of
       $596 million for the period FY 2005 through FY 2017. To add further
       confusion, FAA’s independent assessment team did not validate FTI benefits
       approved by the JRC. The team calculated FTI benefits and estimated them to
       be $712 million (excluding prior investments) for the period FY 2007 through
       FY 2017.

       Our analysis of FTI cumulative benefits, which covers the period of
       performance from FY 2003 through FY 2017, shows that cost savings were
       reduced to $434 million (as calculated in then-year dollars). In current-year
       dollars, which are adjusted for inflation, we calculate that FTI benefits shrunk
       to $158 million through 2017.

       We recognize that Office of Management and Budget (OMB) guidance allows
       FAA to exclude prior investments when assessing cost and benefits and
       approving major acquisition baselines. However, this approach does not
       provide a complete picture of expected benefits in terms of savings to decision
       makers. Because the various estimates for FTI benefits we have seen excluded
       prior investments (as many as 4 years in some cases), benefits were overstated.
       FAA officials are confident that the Agency will realize savings from FTI
       given that the largest legacy network has been replaced. Nevertheless, costs

10
     Planning documents we reviewed supporting the FTI re-baseline in 2004 showed the program was estimated to save
     over $800 million.


                                                         vi
       and expected benefits should be reassessed so they can be accurately reported
       to congressional and departmental decision makers.

Until FAA develops accurate FTI cost estimates, independently validates them,
and reports the correct figures, the true program benefits with respect to cost
savings will remain unknown.

FAA must continue addressing technical and reliability issues that have
impacted ATC operations. FTI technical problems are causing unscheduled
outages and creating risks to air traffic control operations. In some cases, these
outages have involved simultaneous loss of both primary and back-up FTI
services, which not only disrupts air travel but also creates potential safety risks.
In 2006, we reported that a loss of all FTI services led to numerous flight delays at
Chicago O’Hare International Airport and that FAA needed to take action to
ensure telecommunications diversity exists at facilities receiving FTI.

We found that diversity issues and technical problems persist. 11 According to an
October 2007 internal FAA study on FTI diversity, several critical facilities are
still vulnerable to outages because FAA has not ensured that its contractors and
subcontractors adequately separate FTI primary and alternate services. The
following are examples of significant FTI outages:

     • On September 25, 2007, all FTI paths providing radar, flight, and voice
       communications were lost at the Memphis Air Route Traffic Control Center
       (ARTCC), blacking out air traffic control throughout the region for several
       hours and causing 566 flight delays. This occurred due to the catastrophic
       failure of a key component (an optical network ring) that is supposed to have
       built-in fault tolerance. According to FAA’s investigation of this outage, FAA
       was vulnerable to the same type of failure at other critical ARTCC facilities,
       such as Atlanta and Jacksonville. In their comments on our draft report, FAA
       officials stated that the problem has been corrected at Memphis and other FAA
       facilities.
     • On November 9, 2007, all primary and alternate FTI service paths were lost at
       the Jacksonville ARTCC, resulting in 85 flight delays. FAA is now in the
       process of ordering installation of additional FTI equipment here and at other
       critical ATC sites.

We also found that when FTI outages occur, the services are not always restored
within contractual timeframes. For example, in March 2008, FTI contractor
officials reported that an average of 7 percent of FTI services were not restored on
time. While the FTI contract requires NAS services such as En Route Air to

11
     For the purposes of this report, we refer to diversity problems as instances where there is not adequate separation
     between FTI primary and alternative paths. We did not examine the overall FTI architecture or design.


                                                           vii
Ground Communications to be restored within 3 hours, the FTI contractor was
taking an average of almost 6 hours to do so.

To mitigate risks to ATC operations and meet reliability standards required by the
contract, FAA must (1) ensure that all sites requiring primary and alternate paths
meet FAA requirements for diversity, (2) improve controls over all FTI
contractors’ configuration of FTI equipment, and (3) take steps to prevent
unscheduled outages and restore them on time.


SUMMARY OF RECOMMENDATIONS
Since we last reported, FAA has made significant progress with FTI and has
transitioned the largest and costliest network to the new system. However, FAA
will not meet all the FTI goals originally established for the program because
some networks will not be transitioned and the expected level of cost savings will
not be realized. As FAA moves forward with FTI, it must provide decision
makers with an accurate account of FTI’s expected benefits and costs for both the
capital and operations accounts. FAA must also ensure FTI diversity requirements
are met to prevent outages to ATC operations.

Our recommendations include (1) reassessing FTI program costs and benefits, as
the current estimates do not include the cost to extend the use of legacy networks
beyond December 2008; (2) updating the FTI schedule with an effective transition
plan outlining when the DMN, NADIN-PSN, and BWM networks will be
transitioned to FTI; (3) periodically conducting internal studies to ensure that
contractors meet FTI diversity requirements to prevent outages; and
(4) establishing an improved process that requires Harris’s technicians to restore
FTI services within established contractual timeframes to meet reliability
standards. Our complete recommendations are listed at page 16.


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
On June 30, 2008, we provided FAA with our draft report. In addition, we held an
exit conference on July 3, 2008, and subsequent meetings with FAA officials
responsible for managing FTI, including the Senior Vice President for Operations
and Assistant Administrator for Financial Services who also serves as the
Agency’s Chief Financial Officer.

On September 19, 2008, FAA provided its formal response to our draft report and
concurred with all six of our recommendations, which included the need to
reassess network engineering costs, conduct periodic audits to ensure diversity,


                                       viii
and review internal procedures for reporting FTI outages. FAA also provided
additional comments on various aspects of our report. FAA’s response is included
in its entirety in the appendix to this report. FAA’s comments and our views on its
comments are fully discussed on pages 17 through 20.

We appreciate the cooperation and assistance of FAA representatives during this
audit. If you have any questions regarding this report, please contact me at (202)
366-1427 or Lou Dixon, Assistant Inspector General for Aviation and Special
Program Audits, at (202) 366-0500.


                                        #


cc:   FAA Acting Deputy Administrator
      FAA Assistant Administrator for Financial Services
       and Chief Financial Officer
      FAA Chief Operating Officer
      OST Director Office of Audit Relations




                                        ix
                                 TABLE OF CONTENTS



FINDINGS .............................................................................................. 1
    FAA Has Made Significant Progress Transitioning to FTI but
    Will Not Replace All Networks by December 2008 as
    Planned ...................................................................................................... 1
    FAA Has Not Validated FTI Cost Estimates, and the
    Program Costs and Benefits Remain Uncertain......................................... 5
    FAA Must Continue Addressing Technical and Reliability
    Issues That Have Impacted ATC Operations ........................................... 10

RECOMMENDATIONS........................................................................ 16

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE ......................................................................................... 17

EXHIBIT A. OBJECTIVES, SCOPE, AND METHODOLOGY............ 21

EXHIBIT B. STATUS OF FTI REPLACEMENT OF SEVEN LEGACY
TELECOMMUNICATION NETWORKS (AS OF MARCH 31, 2008)... 22

EXHIBIT C. TOTAL PLANNED FTI SERVICES DISTRIBUTION BY
RMA LEVEL......................................................................................... 23

EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT .............. 24

APPENDIX. AGENCY COMMENTS................................................... 25
                                                                               1


FINDINGS
In August 2006, FAA’s JRC met and subsequently approved a second re-baseline
of FTI’s cost and schedule goals, which extended the completion date for the FTI
transition by 1 year to December 2008, increased overall program costs by over
$100 million (from $3.3 billion to $3.4 billion), and reduced the total number of
NAS services to be transitioned to FTI from 25,294 to 20,033. Since we last
reported, FAA has made significant progress with the FTI transition, with
19,977 services cut over to operations as of March 31, 2008. FAA also
transitioned the costliest legacy network that FTI was planned to replace.

However, FAA has decided to indefinitely defer the transition of three legacy
networks beyond December 2008 due to technical challenges and other issues. As
a result, FTI will not provide an integrated suite of NAS services as FAA
originally planned. Further, FAA must continue funding multiple systems, which
will have cost, benefit, and operational ramifications that have yet to be
determined. Moreover, FAA is now addressing emerging requirements that were
not included in the FTI baseline. Consequently, the total number of FTI services
increased to 22,719; however, FAA has yet to update the FTI schedule to reflect
all the additional services.

Further, FTI’s costs and benefits remain uncertain. Although FAA completed its
assessment of various FTI cost elements, concerns about how costs are charged to
FAA Operations account persist to date. Moreover, FAA did not independently
validate the $596.4 million estimated cost savings approved by the JRC. Until
FAA develops accurate FTI cost estimates and independently validates them as
agreed after our 2006 report, the true program benefits will remain unknown.

Finally, we found that FAA facilities using FTI have experienced outages of
primary and back-up services, which have disrupted ATC operations. Further,
these outages are not always restored within contractual timeframes. FAA must
ensure that FTI services meet diversity requirements and reliability standards to
avoid further ATC disruptions.


FAA Has Made Significant Progress Transitioning to FTI but Will Not
Replace All Networks by December 2008 as Planned
Since we last reported in April 2006, FAA has made significant progress
transitioning telecommunications services to the FTI network. FAA’s current
transition plan focuses on first decommissioning LINCS, the costliest legacy
network; then implementing emerging service requirements; and, finally,
implementing all services. To its credit, FAA replaced four of the seven legacy
systems with FTI, including the LINCS network as of March 31, 2008 (see
exhibit B).    Additionally, because the LINCS network had been fully

Findings
                                                                                                              2


decommissioned, FAA reported that March 31, 2008, would be the last time it
would provide regular monthly reports on the FTI transition status.

Overall, FAA has made significant progress transitioning to FTI. For example, as
of March 31, 2008, FAA reported that it accepted 90 percent of the FTI services
(see table 3). FAA also reported that it disconnected about 82.1 percent of the
planned legacy service disconnects. For comparison, when we last reported on
these steps in April 2006, FAA had only accepted 6.3 percent of the services and
disconnected only 3.1 percent of the legacy services.

                  Table 3. Status of FTI’s Five Critical Steps
                                      (as of March 31, 2008)
      Transition Steps              Actual Tasks          *Total Quantity          Percent Complete
                                     Reported                Planned
   Site Acceptance                     3,826                   4,174                       91.7 %
   Service Acceptance                  20,516                 22,719                       90.3 %
   Service Cut Over                      19,977                 22,719                     87.9 %
   Legacy Service/Circuit                14,113                 17,191                     82.1 %
   Disconnects
   LINCS A-Node                            160                    160                      100 %
   Decommissions
  * The total number of planned services and legacy circuit disconnects is provided in the March 2008 FTI master
    schedule.
 ** According to FTI program officials, all 160 LINCS A-Nodes were decommissioned by April 2008.
    Source: FTI Program Office, “Metrics Report,” as of March 31, 2008

We found, however, that FAA will not replace all legacy networks by
December 2008 as planned since it has deferred transitioning three of the seven.
As a result, FTI will not provide a fully integrated suite of NAS services as FAA
envisioned. Further, as FAA moves forward with FTI, it must update the FTI
master schedule to address the Agency’s growing needs for telecommunications.


FAA Will Not Replace All Legacy Networks by the Planned December
2008 Transition Completion Date
FAA intended for FTI to replace seven existing FAA-owned or leased
telecommunications networks with a single network by December 2008.
However, FAA experienced technical challenges transitioning digital services
(such as those that transmit critical radar and flight data) to FTI. As a result, FAA
has deferred transitioning the following three networks, which support key NAS
services, to FTI beyond the December 2008 completion date:




Findings
                                                                                                           3


     • DMN, which supports long-range radar services: DMN services transport
       radar information throughout FAA facilities. The technologies include (1) data
       multiplexing, which enables consolidation of several independent transmission
       requirements to a single circuit, and (2) automated network monitoring and
       controls, which enable real-time identification of failed NAS elements from
       central locations and circuit restoration.

       FAA will not replace the DMN modems until after December 2008. In the
       interim, FAA will continue to depend on older FAA equipment, such as DMN
       Codex modems. FAA’s decision to defer the transition of specific services is
       related to uncertainty with the overall direction of related modernization
       efforts. For example, FAA has been transitioning some services from DMN,
       but it decided to leave surveillance services supporting long-range radars on
       DMN until it decides how surveillance data will be handled under NextGen.

     • NADIN-PSN, which supports flight data and weather information
       services: The NADIN data communications network is a tool for aviation
       users in both the NAS and the international community. The network is used
       to store, handle, and edit flight planning and weather messages at FAA’s
       facilities that manage high-altitude traffic.

       NADIN switches 12 will not be replaced by FTI at FAA centers until 2009 or
       2010. FAA decided to avoid the custom development cost of establishing the
       same capability under FTI as the technology is becoming obsolete. In the
       interim, FAA will continue to depend on the older NADIN equipment.

     • BWM, which supports NAS and National Defense Program services: The
       BWM network supports the transmittal of voice and radar data in and between
       FAA facilities. BWM provides bandwidth-on-demand, automatic restoration,
       switching, and intelligent routing of these services.

       The BWM transition to FTI will not occur until after December 2008, if at all.
       The Department of Defense raised interface concerns about replacing BWM
       with FTI. Moreover, the contractor has had to replace or upgrade other digital
       equipment, such as routers 13 that were installed but failed to meet
       requirements.

FAA needs to update the FTI schedule so that it details when the DMN, NADIN-
PSN, and BWM networks will be replaced by FTI.




12
     A network switch is a computer networking device that connects network segments.
13
     A router is a device that determines the proper path for data to travel between different networks.


Findings
                                                                                                    4


The Number of Services That Need To Be Transitioned to FTI Continues
To Fluctuate
The FTI schedule continues to fluctuate even though FAA significantly reduced
the number of services planned for transition to the FTI network. When FAA
approved the FTI schedule in August 2006, it reduced the number of services to be
transitioned from 25,294 to 20,033 (about a 20-percent reduction). FAA reduced
the number of FTI services to be transitioned by re-categorizing the majority of
them as future requirements. Since then, the total number of planned FTI services
has begun climbing again and remains uncertain.

According to the FTI master schedule, as of March 2008, FAA now plans to
transition 22,719 services to the FTI network (see figure 1). According to FTI
program officials, the service count increased because they added mission support
services, emerging service requirements (that had not been previously identified),
and site-specific requirements.

   Figure 1. FTI Planned Services Have Fluctuated Over Time




                           30,000


             Num ber of 20,000
             Planned FTI
              Services 10,000


                                0
                                      Prior Plan        Current Plan      Master Schedule
                                      Dec - 2004         Aug - 2006         Mar - 2008

                Planned Services         25,294            20,033              22,719

  Source: OIG analysis of FTI current versus prior baseline schedules and the FTI master schedule

FAA must ensure that all NAS programs requiring FTI services are included in
FTI’s schedule, including those that FTI program officials classified as
“emerging” and “future” requirements to effectively manage the transition and
reduce the risks of schedule delays, cost growth, and risks to ATC operations. For
example, FTI program officials classified services for FAA’s FS-21 program as
“emerging requirements” and began transitioning these services to the FTI
network. When FAA issued its last report on FTI transition goals in March 2008,
however, only 1,149 of 1,847 FS-21 services were included in the FTI schedule.
The FTI master schedule still did not include about 700 remaining FS-21 services
planned for transition.


Findings
                                                                                          5


Moreover, the master schedule does not include key services that FTI program
officials classified as “future services” required for the NextGen system, such as
ADS-B and SWIM. FTI program officials previously reported that these programs
were not included in the FTI schedule because their baselines were not finalized
and approved by FAA. However, we note that both programs received their
baselines in 2007, and FAA needs to add them to FTI’s master schedule. In
addition, Mitre 14 estimates that about 4,000 services classified as “future
requirements” need to be added to the total quantity to be implemented and
transitioned to FTI. The cost of these future services is currently unknown.

FTI program officials acknowledge that the number of services to be transitioned
to FTI will continue to increase and that adjustments to the schedule will be
required to accommodate emerging and future services requirements. As FAA
moves forward with FTI, it must update the FTI master schedule to reflect
emerging and future NAS service requirements.


FAA Has Not Validated FTI Cost Estimates, and the Program Costs
and Benefits Remain Uncertain
The FTI program has experienced cost growth, and its benefits have consequently
eroded. We recommended in April 2006 that FAA validate all program estimates
to determine whether FTI is still cost beneficial. FAA concurred and stated that it
would complete a cost and benefit reassessment based upon actual and projected
FTI and legacy costs and have the estimates independently evaluated.

In August 2006, FAA’s JRC planned to approve a 1-year FTI schedule delay to
December 2008 and increase the overall program costs to $3.4 billion. The JRC
stated, however, that its approval was contingent on FAA’s finance group, the Air
Traffic Organization-Finance (ATO-F), validating the revised cost estimates.

In September 2006, FAA’s Independent Evaluation Review (IER) team (within its
ATO-F division) completed its assessment of various FTI cost elements but did
not validate the cost and benefit projections. Instead, the IER team raised
concerns about some of the baselined costs. For example, the IER team reported
the F&E baseline is masked by FTI business rules that allow traditional F&E
expenditures to be funded by the Operations account.

Although the FTI estimates were not validated, the JRC still approved the new
baseline, which added over $100 million to the overall program cost estimate
despite reducing the number of services. We do not understand why the JRC
approved the revised FTI baseline without validating costs and expected benefits
as agreed. As we reported in the past, FAA policy requires that FAA program

14
     Mitre is a federally funded research and development center under contract to FAA.


Findings
                                                                                             6


officials submit independently validated cost and benefit estimates for planned
capital investments, such as FTI, to the JRC before the JRC approves a re-baseline
request. Validating cost and benefit estimates is important because if the revised
program costs are underestimated, cost growth will cause benefits to be reduced,
possibly to the point of undermining the cost effectiveness of the investment.

We have several concerns regarding the accuracy and validity of FTI revised cost
estimates because our analysis indicates that FAA has understated costs for the
F&E and legacy categories. Due to this uncertainty with FTI revised costs, FTI
estimated cost savings benefits remain questionable.


FTI Facilities and Equipment Costs Are Understated, and FAA Had
Improperly Charged Activities to the Operations Account
FTI’s revised F&E cost estimate of $318.8 million is underestimated due to
additional F&E costs for network engineering activities (capital costs) that were
charged to the Operations account.

We found that network engineering was the primary cost driver impacting F&E,
which grew by more than $36 million over a 4-year period ending in FY 2007 (see
table 4). In FY 2007 alone, we identified a nine-fold increase over FAA’s original
estimate of $1.5 million to $15.8 million for network engineering support.

               Table 4. FTI Network Engineering Cost Growth
                     Charged to FTI Operations Account
         Contract                 Contract          Contract          Cost        Percent
          Year                  Modification 4    Modification 12    Growth       Increase
                                (Apr. 27, 2004)   (Nov. 20, 2006)
  FY 2004/CY-2                      $2,231,090       $ 4,401,683    $ 2,170,593      97%

  FY 2005/CY-3                       $2,305,557       $12,761,781   $10,456,224     454%
  FY 2006/CY-4                       $2,282,499       $11,700,000   $ 9,417,501     413%

  FY 2007/CY-5                       $1,548,163       $15,846,038   $14,297,875     924%
  Totals                             $8,367,309       $44,709,502   $36,342,193     --
Source: FTI Contract Modifications

FTI program officials acknowledge that some network engineering costs should
have been charged to the F&E account and that the Agency did not reflect the
increased network engineering costs in its F&E budget. Most of this cost growth
occurred before FAA updated its business rules in July 2006. Cost growth during
this time period was related to the additional cost incurred to pay for FTI network



Findings
                                                                                    7


implementation (which, as FAA states in its response, is normally funded by the
F&E account).

We previously reported on this problem in 2006 and identified about $11 million
that FAA had improperly charged to the Operations account instead of the F&E
account. We recommended that FAA update FTI business rules to properly
charge the F&E account for FTI transition activities.

Although FAA concurred and revised its business rules, it continued to allow
charges to its Operations account that should have been charged to the F&E
account. For example, although FAA updated FTI business rules in July 2006 and
added $7 million in F&E funding for network engineering, FAA’s own IER team
found that most of the network engineering cost increase from FY 2004 through
FY 2006 was absorbed in the operations appropriation. Moreover, the IER team
reported that the adjusted business rules did not establish a clear boundary
between F&E- and operation-funded activities.

In addition, when the IER team assessed FTI costs in September 2006, it found
that $24.7 million in network engineering cost was charged to the Operations
account through the end of FY 2006. The IER team also found that FTI’s impact
on the F&E baseline is masked by business rules that allow F&E expenditures to
be funded from the Operations account.

Ultimately, assigning some of these network engineering costs to the Operations
account understates the true F&E costs for the FTI program. Because FTI
program officials did not discontinue this practice after changing their business
rules, it is difficult for decision makers to understand the actual cost to transition
to FTI. Until FAA reassesses the network engineering costs paid from the
Operations account to the F&E account, the true transition costs for FTI will
remain unknown.


FAA Will Have To Account for Increased Telecommunications Operating
Costs Due to the Increased Number of FTI Services
The FTI revised operations cost estimate of $1.95 billion was planned to support
20,033 services, but this estimate did not consider the cost to support additional
services such as “emerging requirements.” FAA has increased the number of FTI
services to 22,719. According to FAA officials, the majority of these
requirements will be paid for by other programs. This explains why FAA’s
planned operations costs for FTI over the next 4 years (between FY 2009 and
FY 2012) show a steady state of decline (see figure 2 on page 8).




Findings
                                                                                 8


 Figure 2. FTI Planned Operations Cost Are Declining While the
             Demand for FTI Services Is Increasing
                      (FY 2009 – FY 2012)




                               250

                               200
               $ in Millions




                               150

                               100

                               50

                                0
                                     FY 2009   FY 2010       FY 2011   FY 2012
 FTI Scope (FTI OPS + Legacy OPS)     206       165.4         152.6     145.3
                                                   Fiscal Years


Source: FTI Metrics Report and OMB Exhibit 300 (Budget Year 2009)

It is important to note that FTI’s costs do not reflect all of the Agency’s
telecommunications costs. Since the cost of emerging services is not part of the
FTI cost baseline, FAA will need to account for the cost of those services within
the individual programs that are the sources of the requirements. Regardless of
whether FAA includes the additional funding for these services in revised FTI cost
estimates, funding for these requirements will inevitably need to be reflected,
either through adjustments to FTI or in the Agency’s total operating budget for
telecommunications services.


FTI Cost Savings Have Eroded, and FAA Needs To Reassess Its
Revised Benefits
When FAA first re-baselined the FTI program in 2004, we found that FTI’s
estimated cost savings decreased from $820 million to $672 million through 2017.
In October 2005, we received an updated status report from the Program Office
showing that FTI benefit estimates had been reduced to $672 million. As a result
of cost growth in the FTI program, FAA’s cumulative cost benefit estimates
continued to erode, with no cost savings achieved in FY 2006 or FY 2007.

As we previously noted, FAA did not validate FTI benefits (cost savings) before
the JRC approved the baseline. Moreover, considerable confusion exists about the


Findings
                                                                                                                           9


           expected savings from FTI because we have seen various estimates and different
           periods of performance used to calculate the benefits.

           When FAA established a second re-baseline in 2006, we estimate that FTI
           cumulative benefits were further reduced from $672 million to $434 million (as
           calculated in then-year dollars) for the period FY 2003 through FY 2017. In
           current-year dollars, which are adjusted for inflation, we calculate that FTI
           benefits shrunk to $158 million (see table 5).

                       Table 5. Changes in FTI Cost Savings Estimates in
                               Then-Year and Current-Year Dollars
                                                      (Dollars in Millions)
   FTI Cost           FY        FY        FY         FY         FY         FY       FY       FY        FY       FY       FY      Total
    Savings          2003      2004      2005       2006       2007       2008     2009     2010      2011     2012     2013-
  (then-year)                                                                                                           2017
   December
     2004            $-60.4   $-67.5    $-131.7    $-111.5      $-84.9    $14.7    $67.3     $97.8   $111.4     $129    $708.2   $672.4
  September
     2006             *N/A     *N/A        -83.1    -133.4      -140.6       -73      39      83.6    105.2    123.9     674.8    596.4
     OIG
  Calculation         -45.4     -97.1      -92.1    -127.1      -157.4       -73      39      83.6    105.2    123.9     674.9    434.4

   FTI Cost
   Savings
(current-year)
  December
     2004             -60.4     -67.5    -131.7     -108.5       -77.4      12.8      56      77.6      84.4    93.3     445.5    326.1
  September
     2006             *N/A     *N/A        -83.1    -133.4      -140.6     -69.5    35.3      72.2      86.4      97     455.8    320.1
     OIG
  Calculation        $-45.5 $-97.1        $-92.1 $-127.1        $-157.4 $-69.5 $35.3         $72.2     $86.4      $97   $455.8    $158
*FAA’s calculation of cost savings for the current baseline in 2006 excludes sunk costs reported in FY 2003 and FY
 2004. Our calculations of FTI cost savings for the current baseline in 2006 include all sunk costs, and we relied on
 actual costs from 2003 to 2007 to estimate savings.
 Source: FTI basis of estimates in 2004 and FTI Program Office cost savings estimates in 2006.

           Moreover, according to program officials, FTI benefits approved by the JRC
           included estimates for the period FY 2005 through FY 2017 and totaled
           $596.4 million. However, FAA’s independent assessment did not validate the
           estimates approved by the JRC. Instead, FAA used estimates for the period
           FY 2007 through FY 2017 to calculate FTI benefits, which totaled $712.8 million.

           We recognize that OMB guidance allows FAA to exclude prior investments when
           reporting benefits to OMB; however, this approach does not provide a complete
           picture of FTI cumulative benefits to decision makers. In our view, FAA should
           include prior investments in its calculations of estimated savings when reporting
           FTI cumulative benefits to decision makers. Because FAA’s assessment excluded
           4 years from its calculations, FTI benefits were overstated and should be


           Findings
                                                                                  10


reassessed to be accurately reported to congressional and departmental decision
makers.

Another cause for concern with FAA’s projection of FTI cost savings involves
legacy operations costs. FAA predicated its investment in FTI on achieving
savings through one consolidated telecommunications network. Now that the
Agency has decided to continue operating a portion of three legacy networks
beyond December 2008, it is imperative that FAA recalculate the legacy
operations cost and determine its impact on FTI’s estimated cost savings.

Additionally, in September 2006, FAA added $259.9 million to the baseline cost
for operating legacy telecommunications networks within the scope of the FTI
program. This resulted in a revised legacy cost total of about $1.1 billion. We
found, however, that the revised total was underestimated because FAA did not
include about $200 million in its revised estimate. As a result, based on our
calculation of actual legacy costs through June 2007, FAA already expended about
$57 million more than planned ($1,174 million spent versus $1,117 million
planned). FTI program officials acknowledged that they did not include FY 2002
legacy operations costs in the updated baseline. In viewing the history of the FTI
program, an accurate accounting of the legacy costs is important as delays with the
FTI transition translate directly into reduced cost savings due to paying for legacy
systems longer than planned. Moreover, this is a key omission on FAA’s part that
must be fully disclosed to accurately report the true legacy cost within the scope of
the FTI program.

Because FAA has yet to correct these issues, we continue to question the accuracy
of FAA’s cost projections for FTI. In fact, at the end of FY 2006, FAA
expenditures for the year totaled $372 million for telecommunications services—
$27 million more than the $345 million the Agency planned to spend. In
FY 2007, FAA spent $397 million—$37 million more than planned. We note that
every dollar spent above FAA’s annual cost estimates is a dollar directly deducted
from FAA’s projected FTI cost savings. In FY 2008, through FAA’s last
reporting period for FTI (which ended March 31, 2008), the Agency spent about
$160 million to support the program.


FAA Must Continue Addressing Technical and Reliability Issues That
Have Impacted ATC Operations
We found that FAA facilities using FTI have experienced unscheduled service
outages, which have disrupted ATC operations and caused flight delays. Because
of these outages, several FTI services are not meeting availability requirements or
being restored within contractual timeframes. As we reported in 2006, FAA must



Findings
                                                                               11


ensure that FTI services avoid these problems by meeting diversity requirements
(adequate separation of primary and alternate services) and reliability standards.


FTI Services at Critical Locations Have Experienced Outages and Caused
Flight Delays
One of the primary technical risks occurring with FTI services is unscheduled
service outages. In some cases there has been a simultaneous loss of primary and
alternate telecommunications paths. Unscheduled outages in which both primary
and back-up FTI services are lost not only disrupt and delay air travel but also
have critical safety implications. We reported in 2006 that FAA needed to pay
special attention to ensuring telecommunications diversity after a loss of all FTI
services led to numerous flight delays at Chicago O’Hare International Airport.

Our current review found, however, that diversity problems persist with the FTI
program. An October 2007 internal study completed by the FTI prime contractor
found that several critical NAS locations continue to lack adequate diversity
between primary and alternate telecommunications paths. Therefore, the potential
to simultaneously lose all primary and alternate FTI services remains at those
sites, and this could result in a loss of ATC operations.

We identified key FAA facilities in the New York metropolitan area that lack FTI
diversity: the Kennedy Airport tower, the New York Terminal Radar Approach
Control Center, and the New York ARTCC. The FTI services at these facilities
were all routed through a single switching center operated by a single telephone
company. No FTI services for these facilities were routed through an alternate
switching center to provide back-up should an outage occur at the primary
switching center.

The primary cause of these diversity problems is inadequate coordination between
FTI’s prime contractor and its subcontractors when designing and installing FTI
services. FAA must continually review the implementation of critical services to
ensure that diversity requirements are being met. We found that the diversity
problems and other issues continue to result in flight delays. For example,

 • On November 9, 2007, when FTI service was interrupted at Jacksonville
   ARTCC, all primary and alternate paths were lost, which resulted in 85 flight
   delays. FAA is now in the process of ordering installation of additional FTI
   equipment in New York, Jacksonville, and other critical ATC sites where FTI
   diversity was found to be inadequate.

 • On September 25, 2007, all FTI primary and alternate paths providing radar,
   flight, and voice communications were lost at the Memphis ARTCC, blacking
   out air traffic control throughout the region for several hours and causing

Findings
                                                                                                 12


    566 flight delays. The problem was caused by the catastrophic failure of a key
    component (an optical network ring) that is supposed to have built-in fault
    tolerance. According to FAA’s investigation of this outage, FAA was
    vulnerable to the same type of failure at other critical FAA facilities, including
    Atlanta and Jacksonville. The Memphis outage could have been prevented if
    the alternate telecommunications path was routed differently. FAA officials
    stated that the problem has been corrected at Memphis and other facilities.

  • On July 27, 2007, FAA lost primary and back-up FTI services providing en
    route communications (ECOM) between air traffic controllers and pilots over
    North Carolina. Primary service was not restored for about 7 hours, and it took
    over 6 hours for back-up service to be restored.

In addition to inadequate diversity of services, we have identified several other
causes for outages. Table 6 provides examples of critical FTI outages and their
causes that disrupted ATC operations.

                    Table 6. Examples of Critical FTI Outages
                   That Disrupted Air Traffic Control Operations
                                                                                          Arrival/
    Location            Date      Duration                    Details                    Departure
                                                                                          Delays
Chamblee, GA           05/15/08     3.8hrs     FTI circuit failure resulted in loss of      41
                                               multiple services.
San Diego, CA          04/12/08     2.2hrs     Teleco failure resulted in loss of           5
                                               services.
Leesburg, VA           03/24/08    1.08 hrs    Service between Washington and               60
                                               Jacksonville failed. No definitive
                                               cause has been identified.
Merrimack, NH          12/04/07    1.95hrs     Cables dislodged from the patch panel        49
                                               interrupted multiple services.
Jacksonville, FL       11/09/07   38 minutes   Inadequate physical diversity resulted       85
                                               in loss of service.
Memphis, TN            9/25/07     3 hours     Inadequate physical diversity resulted      566
                                               in loss of service.
Chicago, IL            5/23/07    3.5 hours    Improperly configured FTI equipment          77
                                               resulted in loss of service.
Los Angeles, CA        3/30/07    5 minutes    Display services interrupted during          25
ATCT                                           FTI troubleshooting.
Salt Lake, UT          1/09/07      3 hrs      FTI maintenance supervisor failed to         92
ARTCC                                          follow established procedures.
Orlando, FL            12/11/06    1.3 hrs     Improper configuration caused loss of        63
ATCT                                           service.
San Juan, PR           12/04/06     20 hrs     Underwater cable cut caused loss of          60
CERAP                                          service.
Atlanta, GA            09/28/06    1.25 hrs    Defective equipment caused the loss          8
ATCT                                           of multiple services.
Source: FAA NOCC Reports



Findings
                                                                                   13


The causes of other outages include defective or improperly configured
equipment, and poor reliability of installed equipment. For example, on
May 23, 2007, improperly configured FTI equipment in Chicago caused the loss
of all radar service, forcing air traffic controllers to implement a local ground stop
that caused 77 flight delays. Another incident occurred on December 4, 2006, in
San Juan, Puerto Rico, which resulted in the loss of an FTI circuit and caused 60
flight delays.

To prevent additional FTI outages caused by inadequate physical separation of
primary and alternate services, FAA needs to require that its prime contractor
periodically conduct internal studies to ensure all sites requiring primary and
alternate paths meet FAA requirements for diversity.


FAA Needs To Ensure the FTI Contractor Responds to FTI Outages
More Efficiently
At FAA sites we visited, regional officials told us that the FTI contractor’s
responses to service outages are unacceptable. For instance, without informing
FAA regional technicians, the FTI contractor has dispatched its own or local
telephone company technicians to sites in response to outages. This results in
inefficient use of resources as the contractor technicians must wait for an FAA
escort before they can begin working. Moreover, any time waiting for the FAA
escort to arrive counts as “customer time” and is not included in the reported
outage time.

In addition to slow and uncoordinated responses, FTI technicians have left sites
before completing repairs. For example, in some cases, technicians did not know
how to repair services or did not have the correct parts or testing equipment. This
means that, in those instances, multiple site visits are required for the technicians
to restore the service. For example, FAA experienced several outages at the
Duluth Radio Communication Air to Ground facility in Minnesota. Here,
response times ranged upwards of 20 hours. Another problem hampering
customer service is that service restoration sometimes depends on the local
telephone companies that are not aware of the criticality of the FTI network. As a
result, FAA’s own technicians have become critical links in restoring FTI services
by providing assistance to the FTI contractor and its subcontractors.

Another challenge that FTI program officials need to address is the lack of
communication between the contractor and FAA when outages occur. FAA field
personnel at sites we visited reported difficulty receiving updates and information
from Harris’s command center regarding the status of FTI outages. For example,
we witnessed an outage at the Albuquerque ARTCC that FAA had to report to



Findings
                                                                                                                      14


Harris, when Harris should have detected it and reported it to FAA. Also, after
receiving the report, Harris did not provide any updates for over 2 hours.

In another instance, poor workmanship at the Boeing Field tower in Seattle led to
an FTI outage that caused the tower to close and transfer local air traffic control to
another location. The outage went unnoticed by Harris’s command center.
Instead, FAA technicians had to notify Harris of the problem. It then took 3 days
for Harris’s subcontractor to visit the site to determine the cause of the incident.

FAA and the FTI prime contractor have taken a number of steps to improve FTI
processes and procedures for reporting and resolving problems with outages.
However, additional work is needed to ensure that FTI outages are restored in a
timely manner and meet contractual requirements.


FAA Must Ensure That FTI Services Are Meeting Reliability Standards
We found that some FTI services are not meeting contractual reliability,
maintainability, and availability requirements (RMA requirements). 15      For
example, in March 2008, FTI contractor officials reported that an average of
7 percent of FTI services experienced outages and were not restored on time to
meet their availability requirements.

There are seven different levels of RMA services being provided by FTI. For
instance, RMA-1 services, 16 such as radars, are required to be restored within
6 seconds; however, we found the contractor took an average of 1 minute and
32 seconds in March 2008 to restore them.

Key RMA-4 services, such as En Route Air to Ground Communications, account
for about 75 percent of all FTI services (see exhibit C). FAA requires that these
services be restored within 3 hours. We found, and FAA acknowledged, that there
was a problem in restoring these services in a timely fashion. FAA determined
that since there would be a significant amount of RMA-4 services, meeting the
requirements would be essential to improving overall FTI performance.
Nevertheless, as of March 2008, we found the condition persists, with the FTI
contractor taking an average of 5 hours and 47 minutes to restore RMA-4 services.

FAA must improve its processes and procedures for restoring FTI outages and
ensure that FTI technicians restore services within established contractual
timeframes to meet the availability requirements. When FTI technicians do not
meet those timeframes, FAA should impose penalties against the FTI prime
contractor. FAA should also develop improved procedures and controls for
15
     The FTI contract requires the contractor to issue credits to FAA when services do not met contractual specifications.
16
     RMA refers to reliability, maintainability, and availability, which are FAA performance measures for operational
     services.


Findings
                                                                               15


contractor coordination, equipment installation, and configuration of FTI
equipment to assist with improving the reliability of FTI services.


FAA Needs To Assess Controls Over FTI Reporting To Ensure FAA Senior
Management Has Full Visibility Into All FTI Outages
In reviewing FAA’s outage reports, we identified concerns regarding whether
FAA senior management is aware of all FTI-related outages. While FAA’s
National Operational Command Center (NOCC) reports provide some visibility
into FTI outages, FAA procedures call for many outages to be filtered out as they
are reported up the management chain. Based on the Agency’s NOCC reports
between December 2006 and August 2007, we identified 21 unscheduled outages
that resulted in flight delays and 38 other outages that did not result in delays.

According to Professional Airways System Specialists, or PASS (FAA’s union
representing its technicians), the number of FTI outages was different from what
was identified in the NOCC reports. On May 9, 2007, PASS testified before the
House Committee on Transportation and Infrastructure that, over a 9-day period,
60 unscheduled FTI-related outages occurred in the Central Service Area alone,
while the NOCC reported only 8 outages during the same time period.

Based on a limited analysis of FAA’s Central Service Area daily outage reports,
we found that more than 60 FTI-related outages occurred during the 9-day
period—not 8, as FAA reported in the NOCC. In its comments on our draft
report, FAA stated that all FTI outages are logged and reported to the appropriate
operational points-of-contact for the affected services. Notwithstanding FAA’s
position, our work shows that some FTI outages go unreported and that additional
steps are needed to clarify and strengthen reporting requirements.

While FAA procedures require that outages resulting in air traffic delays be
reported to senior management, we believe that decision makers must have
accurate data about FTI outages that could impact ATC operations. Therefore,
FAA needs to review internal procedures over NOCC reporting and ensure that all
critical, FTI-related outages resulting in ATC delays that the regions include in
daily outage reports are included in the NOCC report. Ultimately, this will help
FAA to target solutions to the most vulnerable facilities and provide an accurate
picture of FTI operations to senior decision makers.




Findings
                                                                                  16


RECOMMENDATIONS
As FAA moves forward with FTI, it must provide decision makers with an
accurate account of FTI’s expected benefits and cost impact on FAA’s capital and
operations funds. Additionally, FAA needs to ensure that FTI diversity
requirements are met to prevent outages to ATC operations. We recommend that
FAA:

   1. Reassess network engineering cost growth that was associated with the FTI
      transition during FY 2004 to FY 2007 but paid from the operations account
      to accurately report the true F&E costs associated with developing and
      transitioning to FTI.

   2. Document the planned schedule for completing the FTI transition for
      services remaining on the DMN, NADIN PSN, and BWM networks beyond
      the current baseline transition end date of December 2008 and those
      emerging services that were identified but not yet included in the schedule
      during the last reporting period for FTI.

   3. Calculate how updates to the transition schedules for the DMN, NADIN
      PSN, and BWM network components remaining in operation will impact
      FTI’s life-cycle cost and benefits baselines.

   4. Conduct periodic internal audits to ensure that adequate physical diversity
      exists at all facilities requiring separation of primary and alternative access
      paths.

   5. Develop an action plan for (a) reducing the time to restore FTI services so
      that it conforms with contractual requirements and (b) improving the
      percentage of FTI services that meet availability specifications.

   6. Review internal procedures over NOCC reporting and ensure all critical
      FTI-related outages resulting in ATC delays that are reported in daily
      outage reports by the regions are included in the NOCC report.




Recommendations
                                                                                  17


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
On June 30, 2008, we provided FAA with our draft report. In addition, we held an
exit conference on July 3, 2008, and subsequent meetings with FAA officials
responsible for managing FTI, including the Senior Vice President for Operations
and Assistant Administrator for Financial Services who also serves as the Agency’s
Chief Financial Officer. Based on FAA’s initial comments, we made a number of
technical adjustments to our report where appropriate and revised the
recommendations to clarify our intent and more accurately describe the corrective
actions that FAA needs to take with respect to FTI.

On September 19, 2008, FAA provided formal comments to our draft report and
concurred with all six of our recommendations.

Recommendation 1: FAA stated that it will reassess network engineering cost
growth that was associated with the FTI transition during FY 2004 to FY 2007 but
paid from the operations account. FAA stated it will report on its findings by
November 29, 2008.

Recommendation 2: FAA stated that it will document the planned schedule for
completing the FTI transition for services remaining on the DMN, NADIN PSN,
and BWM networks beyond December 2008. FAA also stated it would document
the planned schedule for completing the FTI transition for those emerging services
that were identified but not yet included in the schedule during the last reporting
period for FTI. FAA stated it will report on the schedule by November 29, 2008.

Recommendation 3: FAA stated that it will calculate how updates to the
transition schedules for the DMN, NADIN PSN, and BWM network components
remaining in operation will impact FTI’s life-cycle cost and benefit baseline.
FAA stated that it will report on its findings by November 29, 2008.

Recommendation 4: FAA stated that it will conduct periodic, internal audits to
ensure that adequate physical diversity exists at all facilities requiring separation
of primary and alternative access paths. FTI program officials pointed out that
they are already conducting some diversity audits.

Recommendation 5: FAA stated that it will develop an action plan for
(a) reducing the time to restore FTI services so that it conforms with contractual
requirements and (b) improving the percentage of FTI services that meet
availability specifications. FAA stated it will complete the action plan by
November 29, 2008.



Agency Comments and Office of Inspector General Response
                                                                                 18


Recommendation 6: FAA stated that it will review internal procedures over
NOCC reporting to ensure that critical, FTI-related outages resulting in ATC
delays that regions include in daily outage reports are included in the NOCC
report.   FAA stated that it will provide the results of the review by
November 29, 2008.

When successfully implemented, FAA’s planned actions will meet the intent of
our recommendations and provide greater transparency into the Agency’s plans to
address the remaining challenges in meeting FTI transition goals.


FAA General Comments
FAA also included four general comments about FTI and our report.

FAA’s Comments on FTI Business Rules: FAA disagreed with our conclusions
that all network engineering costs through FY 2007 should have been charged to
the F&E account and that FAA continued to allow Operations costs to be charged
to the F&E account. FAA stated that it follows the July 2006 revised business
rules.

We question FAA’s position because our report does not state that all network
engineering costs should have been charged to the F&E account. FTI program
officials agree that FTI’s revised F&E cost estimate of $318.8 million is
underestimated due to additional network engineering activities (capital costs) that
were charged to the Operations account. We found that network engineering was
the primary cost driver impacting F&E, which grew by more than $36 million over
a 4-year period ending in FY 2007. In FY 2007 alone, we identified a nine-fold
increase over FAA’s original estimate of $1.5 million to $15.8 million for network
engineering support.

Moreover, FTI program officials acknowledge that some network engineering
costs should have been charged to the F&E account and that increased network
engineering costs were not reflected in its F&E budget. We note that most of the
cost growth occurred before FAA updated its business rules in July 2006. For
these reasons, we recommended, and FAA agreed, that FAA assess the cost
growth to determine the true F&E costs associated with transitioning to FTI.

FAA’s Comments on Legacy Network Operating Costs: FAA disagreed with
our conclusion that it would have exceeded its life-cycle cost estimate for legacy
operations by $57 million if legacy operations costs from 2002 were included.
FAA states that its year-by-year reporting shows that the actual costs are
$43.7 million less than the plan to date and $231.2 million below the life-cycle
estimate.



Agency Comments and Office of Inspector General Response
                                                                                 19


We maintain that the analysis in our report is correct because FAA did not include
about $200 million in prior operations costs used to support the legacy networks
within the scope of the FTI program. When these costs are included, they increase
the revised cost estimates for legacy operations (of $1.1 billion) by $57 million.
FAA acknowledges that it did not include FY 2002 legacy operations costs in the
updated baseline. In viewing the history of the FTI program, an accurate
accounting of the legacy costs is important because delays with the FTI transition
translate directly into reduced cost savings due to paying for legacy systems longer
than planned.

We have not reviewed FAA’s most recent projections of actual costs for legacy
network operations in detail. However, we found a $50 million variance in the
actual costs being reported for legacy network operations. For example, when
comparing actual costs incurred for legacy operations through FY 2007, FTI
metrics report totaled $948 million, but FTI program officials’ updated projections
totaled $898 million. This type of inconsistency is the reason we continue to
question the accuracy and validity of FTI program officials’ projections of FTI
costs and benefits.

FAA’s Comments on Projections of FTI Cost Savings Benefits: FAA
disagreed with our calculation of FTI cost savings benefits. FAA has developed
an updated projection of cost savings using all actual costs incurred to date and a
revised projection for FY 2008 to reflect the early completion of the LINCS
transition. FAA’s revised projections show that the FTI program remains on track
to produce nearly $600 million in cost savings.

As noted in our report, cost and benefits for FTI remain uncertain, and we have
seen various estimates that rely on different periods of performance. In April
2006, we recommended that FAA independently validate FTI cost projections to
ensure that there was an objective assessment of FTI cost and benefit information.
However, the Agency did not validate the cost and benefit projections. An
internal FAA assessment raised concerns about some of the baselined costs and
reported that the F&E baseline was masked by FTI business rules that allow
traditional F&E expenditures to be funded by the Operations account.

In our analysis of FTI expected savings, we included prior investments (e.g., sunk
costs) as well as the cost of operating legacy systems longer than planned. We
continue to believe that decision makers need a complete picture of costs for FTI
given that it was one of the few acquisitions expected to reduce the Agency
operating costs.

We do not understand why the JRC approved the revised FTI baseline in 2006
without validating costs and expected benefits as agreed. FAA policy requires that
Agency program officials submit independently validated cost and benefit


Agency Comments and Office of Inspector General Response
                                                                             20


estimates for planned capital investments, such as FTI, to the JRC before a
re-baseline request is approved. Validating costs and benefits estimates is
important because if the revised program costs are underestimated, cost growth
will cause benefits to be reduced, possibly to the point of undermining the cost
effectiveness of the investment. Finally, until FAA calculates what impact the
three remaining legacy networks will have on FTI’s life-cycle cost and benefit
baselines, FAA’s projections of FTI cost savings benefits will remain uncertain.

FAA’s Comments on the Reporting of FTI Outages: FAA disagreed that some
FTI outages may be going unreported. Our report states that FAA needs to ensure
FAA senior management has full visibility into all FTI outages. While FAA’s
NOCC reports provide some visibility into FTI outages, FAA procedures call for
many outages to be “filtered” as they are reported up the management chain.
Based on a limited analysis of FAA’s daily outage reports, we found that more
than 60 FTI-related outages occurred during a 9-day period—not 8, as FAA
reported in the NOCC. For this reason, we recommended, and FAA agreed, that
FAA review internal procedures over NOCC reporting and ensure all critical FTI-
related outages are reported.


ACTION REQUIRED
We consider FAA’s actions taken or planned to be responsive to the intent of our
recommendations. In accordance with Department of Transportation Order
8000.1C, we consider the recommendations addressed but open until FAA
completes all planned actions.




Agency Comments and Office of Inspector General Response
                                                                                  21


EXHIBIT A. OBJECTIVES, SCOPE, AND METHODOLOGY
Our audit objectives for this audit were to (1) assess FAA’s progress in developing
a realistic master schedule and an effective FTI transition plan and (2) determine if
FAA is mitigating technical risks to air traffic control operations by coordinating
activities and validating site-specific requirements before activating FTI services
and disconnecting existing telecommunication services.

To achieve our objectives, we obtained FTI monthly status reports, master
schedules, reliability reports, outage reports, budget data, planned and actual cost
expenditure data, revised cost and schedule projections, independent evaluations,
and other supporting documentation from FAA. We also acquired relevant
contractor financial and performance reports from Harris Corporation. We
analyzed FAA’s FTI master schedule and budget and cost estimates. We reviewed
FAA’s FTI transition strategy documents for reasonableness. We analyzed
Harris’s financial and performance reports to determine if FTI equipment was
performing and being maintained as required. We examined FAA’s expenditures
data for FTI and for FAA’s legacy telecommunications networks to determine if
FTI is achieving cost and benefit goals.

While conducting this review, we interviewed key FAA and FTI program officials
at the Agency’s Headquarters in Washington, DC, including FAA officials
responsible for Telecommunications, Acquisition, and Finance, as well as FAA
staff members in organizational units reporting to these officials. We interviewed
FTI prime contractor officials at Harris’s primary FTI location in Melbourne,
Florida. We also met with officials from Mitre. Additionally, we visited
numerous FAA locations in the Agency’s Western Pacific, Northwest Mountain,
Southwestern, Southern, and Great Lakes Regions and interviewed numerous
FAA regional officials, engineers, managers, and technicians involved with
acquiring or operating FAA telecommunications or FTI equipment.

We performed our audit work from May 2006 through July 2008. We performed
our work in accordance with generally accepted Government Auditing Standards
as prescribed by the Comptroller General of the United States.




Exhibit A. Objectives, Scope, and Methodology
                                                                                                                22


          EXHIBIT B. STATUS OF FTI REPLACEMENT OF SEVEN LEGACY
          TELECOMMUNICATION NETWORKS (AS OF MARCH 31, 2008)
                                                                       FTI
Network       Network Name / Description                               Transition     Comments
Acronym                                                                Status
LINCS*        Leased Inter-Facility National Airspace                  Complete       160 out of 160 LINCS A-nodes
              Communications System – Provides connectivity to                        Decommissioned.
              all NAS facilities via leased services on a point-to-
              point basis.

NADIN         National Airspace Data Interchange Network – Part        Not Complete   Interim solution pending
PSN           of the data switching sub-element that provides high                    replacement of NADIN II
              speed data communication between subsystems in                          equipment. Not anticipated to be
              the NAS.                                                                complete until 2009 to 2010
                                                                                      timeframe.

DMN           Data Multiplexing Network – Provides a simple            Not Complete   DMN supporting long-range radars
              multiplexing function for digital data transfer across                  remain. Interim solution pending
              narrow band.                                                            replacement of DMN equipment.
                                                                                      To be replaced after December
                                                                                      2008.

BWM           Bandwidth Manager – Provides multiplex sub-rate          Not Complete   National Security Issue - Interim
              and data streams primarily on ARTCC-to-ARTCC                            solution pending replacement of
              circuits.                                                               BWM equipment. Likely to be
                                                                                      completed after December 2008.

FTS2000       Federal Telecommunications System 2000 and               Complete       FTS dedicated circuits will be
/2001*        2001 – Leased (GSA-provided) connectivity for                           transitioned to FTI.
              administrative voice, data, and video connectivity.

FAATSAT*      FAA Telecommunication Satellite System –                 Complete       FAATSAT network has been
              Provides leased point-to-point connectivity between                     decommissioned. Transition of
              facilities using satellite transmission.                                FAATSAT services to FTI was
                                                                                      completed in September 2006.

ADTN          Administrative Data Telecommunications                   Complete
                                                                           ADTN network has been
              Network – Carries all of the administrative                  decommissioned. The transition of
              infrastructure data and video traffic, including             services from ADTN to the new FTI
              financial and personnel data and e-mail.                     Mission Support Network was
                                                                           completed in September 2006.
* LINCS, FTS2000/2001, FAATSAT, and ADTN were leased telecommunications networks.
** NADIN PSN, DMN, and BWM are FAA-owned assets.




          Exhibit B. Status of FTI Replacement of Seven Legacy
          Telecommunication Networks (as of March 31, 2008)
                                                                                                             23


  EXHIBIT C. TOTAL PLANNED FTI SERVICES DISTRIBUTION BY
  RMA LEVEL
   RMA                                                                       Number of             Percent of
                               Example of Services
   Level*                                                                 Services Planned           Total

   RMA1        Radar, WAAS                                                        202                   1%


   RMA2        Interphone, ATC Computer Circuits                                  1331                 6%


               Flight and Weather Data,
   RMA3                                                                           883                   4%
               Air Traffic Management


               En Route Air to Ground Communication,
   RMA4                                                                         16,400                 75%
               Remote Maintenance Monitoring


               ASOS Weather Sensor,
   RMA5                                                                           1999                 9%
               High Capacity (T1) Circuits


   RMA6        FTI Mission Support                                                820                   4%


   RMA7        FTI SAT                                                            236                   1%


    Total                                                                      21,871**           100%
* RMA 1-3 Diverse: dual path implementation, RMA 4-5 Avoided: single path implementation.
**Total of 21,871 represents FAA planned services by RMA levels, while the 22,719 services we note throughout the
  report represent estimates to completion at a given point in time.




  Exhibit C. Total Planned FTI Services Distribution by RMA Level
                                                                     24


EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT


  Name                               Title

  Matthew E. Hampton                 Deputy Assistant Inspector General
                                     for Aviation and Special Program
                                     Audits

  Kevin Dorsey                       Program Director

  Charles Ward                       Project Manager

  Katrina Knight                     Senior Auditor

  Diane Brattain                     Auditor

  Kim Won                            Auditor

  Curtis Dow                         Analyst

  Andrea Nossaman                    Writer-Editor




Exhibit D. Major Contributors to This Report
                                                                                                     25


APPENDIX. AGENCY COMMENTS

                       Federal Aviation
                       Administration



Memorandum
Date:           September 19, 2008

To:             Lou E. Dixon, Assistant Inspector General for Aviation and Special Program Audits

From:           Ramesh K. Punwani, Assistant Administrator for Financial Services/CFO

Prepared by:    Anthony Williams, x79000

Subject:        OIG Draft Report: FAA’s Progress and Challenges in Meeting FTI Transition Goals
                Federal Aviation Administration

Thank your for the opportunity to review your most recent draft of the subject report. We concur with
all recommendations contained in the report. The Agency’s planned action for addressing each
recommendation is stated below. However, despite the changes that have been made since the original
draft, we continue to have concerns with the accuracy of your findings in four areas: business rules;
legacy network operating costs; projections of Telecommunications Infrastructure (FTI) costs savings
benefits; and reporting of FTI outages. As such, we have included statements outlining our concerns
and positions, and request you consider these statements when preparing your final report.

OIG Recommendation 1: Reassess network engineering costs growth associated with the
Telecommunications Infrastructure transition during fiscal year (FY) 2004 to FY 2007, but paid from
the operations account, to accurately report the true F&E costs associated with developing and
transitioning to FTI.

FAA Response: Concur. The Agency will reassess network engineering costs growth associated with
the FTI transition during FY 2004 to FY 2007, but paid from the operations account, to accurately
report the true F&E costs associated with developing and transitioning to FTI. The Agency will
provide a report on its findings by November 29.

OIG Recommendation 2: Document the planned schedule for completing the transition to FTI of
services remaining on the DMN, NADIN PSN, and BWM networks beyond the current baseline
transition end date of December 2008, and those emerging services that were identified but not yet
included in the schedule during the last reporting period for FTI.

FAA Response: Concur. The Agency will document the planned schedule for completing the
transition to FTI of services remaining on the DMN, NADIN PSN, and BWM networks beyond the
current baseline transition end date of December 2008, and those emerging services that were



Appendix. Agency Comments
                                                                                                     26


identified but not yet included in the schedule during the last reporting period for FTI. The Agency
will provide a report on the schedule by November 29.

OIG Recommendation 3: Calculate how updates to the transition schedules for the DMN, NADIN
PSN, and BWM network components remaining in operation will impact FTI’s life cycle cost and
benefits baselines.

FAA Response: Concur. The Agency will calculate how updates to the transition schedules for the
DMN, NADIN PSN, and BWM network components remaining in operation will impact FTI’s life
cycle cost and benefits baselines. The Agency will provide a report on its findings by November 29.

OIG Recommendation 4: Conduct periodic internal audits to ensure that adequate physical diversity
exists at all facilities requiring separation of primary and alternative access paths.

FAA Response: Concur. The Agency will conduct periodic internal audits to ensure that adequate
physical diversity exists at all facilities requiring separation of primary and alternative access paths.
FTI is already performing regularly scheduled diversity audits. Results of these audits can be made
available upon request.

OIG Recommendation 5: Develop an action plan for: (1) reducing the time to restore FTI services so
that it conforms with contractual requirements; and (2) improving the percentage of FTI services that
meet availability specifications.

FAA Response: Concur. The Agency will develop an action plan for: (1) reducing the time to restore
FTI services so that it conforms with contractual requirements; and (2) improving the percentage of
FTI services that meet availability specifications. The Agency will complete the action plan by
November 29.

OIG Recommendation 6: Review internal procedures over National Operations Command Center
(NOCC) reporting and ensure all critical FTI-related outages resulting in ATC delays that are reported
in daily outage reports by the regions are included in the NOCC report.

FAA Response: Concur. The FAA will review internal procedures over NOCC reporting and will
continue to ensure all critical FTI-related outages resulting in ATC delays that are reported in daily
outage reports by the regions are included in the NOCC report. The results of the review will be
provided by November 29.

Comments on the findings in the report:

Business Rules

FAA Comments: The FAA does not agree with the OIG conclusions that: (1) all Network Engineering
costs through FY2007 should have been charged to the F&E account; and (2) the FAA continued to
allow Operations costs to be charged to the F&E account. With respect to the first conclusion, the
FAA agrees that implementation-related costs should be funded by the F&E account, but not all
Network Engineering activities are related to network implementation. Thousands of FTI services
have been in operation since 2005 and a significant portion of Network Engineering activities are
appropriately funded by the Operations account because they are related to network optimization and
changes to services that are already in operation, i.e., they are not related to network implementation.




Appendix. Agency Comments
                                                                                                   27


With respect to the second conclusion, in April 2006, the DOT OIG issued an audit report
recommending that FTI business rules should be revisited since the transition was running behind
schedule and significant implementation-related activities were still ongoing. Consistent with the OIG
recommendation, the FTI business rules were updated to specify that implementation-related Network
Engineering activities should be funded by the F&E account and operations-related activities should
be funded by the Operations account. The FAA follows the revised business rules. For this reason, the
FAA disagrees with the OIG finding that the FAA continued to allow charges to the Operations
account that should have been charged to the F&E account.

Legacy Network Operating Costs

FAA Comments: The FAA disagrees with the OIG conclusion that FAA would already have exceeded
its life cycle cost estimate for legacy operations costs by $57 million if the legacy operations costs
from 2002 were included. The FAA’s year-by-year reporting shows that the actual costs are
$43.7 million less than the plan to-date and $231.2 million below the life cycle estimate.

Projections of FTI Costs Savings Benefits

FAA Comments: The FAA does not agree with the OIG calculation of FTI costs savings benefits. The
FAA has developed an updated projection of cost savings benefits using all actual costs incurred to-
date and a revised projection for FY2008 to reflect the early completion of the LINCS transition. The
revised projection shows that the FTI program remains on track to produce nearly $600 million in
then-year cost savings which equates to $375 million in discounted dollars using the prevailing
discount rate published by the OMB.

Reporting of FTI Outages

FAA Comments: FAA does not agree with the OIG assertion that some FTI outages may be going
unreported. The FAA has defined procedures for reporting outages and those procedures are followed
for FTI. All FTI outages are logged and reported to the appropriate operational points-of-contact. In
addition, all FTI outages that impact air traffic control operations are reported to FAA senior
management.




Appendix. Agency Comments
The following pages contain textual versions of the graphs and charts included in
this document. These pages were not in the original document but have been
added here to accommodate assistive technology.
      FAA’s Progress and Challenges in Meeting FTI Transition Goals

                      Section 508 Compliant Presentation

Table 1. History of FTI Program Changes

In July 1999, FAA established the FTI baseline. This baseline included 1,374
planned FTI sites. FTI services planned were not defined in this baseline. This
baseline also included a planned transition completion date of September 2005, a
planned program completion date of 2010, and a cost estimate of $1.9 billion.

In December 2004, FAA re-baselined FTI, with 4,463 FTI sites planned, 25,294
FTI services planned, a planned transition completion date of December 2007, a
planned program completion date of 2017, and a cost estimate of $3.3 billion.

In September 2006, FAA did a second FTI re-baseline, with 4,053 FTI sites
planned, 20,033 FTI services planned, a planned transition completion date of
December 2008, a planned program completion date of 2017, and a cost estimate
of $3.4 billion.

Source: FTI JRC Baseline Briefs and FTI National Implementation “Kickoff
Team” Brief

Table 2. FTI Life-Cycle Cost Estimates

In December 2004, FAA’s Joint Resources Council approved $310,200,000 for
FTI facilities and equipment costs. In August 2006, the Joint Resources Council
approved $318,800,000 in FTI facilities and equipment costs. This increased FTI
facilities and equipment costs by $8,600,000.

In December 2004, FAA’s Joint Resources Council approved $2,110,100,000 for
FTI operations costs. In August 2006, the Joint Resources Council approved
$1,954,400,000 for FTI operations costs. This decreased FTI operations costs by
$155,700,000.

In December 2004, FAA’s Joint Resources Council approved $857,400,000 for
FTI legacy operations costs. In August 2006, the Joint Resources Council
approved $1,117,300,000 for FTI legacy operations costs. This increased FTI
legacy operations costs by $259,900,000.

In December 2004, FAA’s Joint Resources Council approved $3,277,700,000 in
total FTI life-cycle costs. In August 2006, the Joint Resources Council approved
$3,390,500,000 in total FTI life-cycle costs. This increased total FTI life-cycle
costs by $112,800,000.

Source: FTI Program Baseline Briefs

Table 3. Status of FTI’s Five Critical Steps as of March 31, 2008

Site Acceptance         3,826 actual     4,174 total        91.7 percent
                        tasks reported   quantity planned   complete
Service Acceptance      20,516 actual    22,719 total       90.3 percent
                        tasks reported   quantity planned   complete
Service Cut Over        19,977 actual    22,719 total       87.9 percent
                        tasks reported   quantity planned   complete
Legacy                  14,113 actual    17,191 total       82.1 percent
Service/Circuit         tasks reported   quantity planned   complete
Disconnects
LINCS A-Node            160 actual       160 total          100 percent
Decommissions           tasks reported   quantity planned   complete

Note 1: The total number of planned services and legacy circuit disconnects is
provided in the March 2008 FTI master schedule.

Note 2: According to FTI program officials, all 160 LINCS A-Nodes were
decommissioned by April 2008.

Source: FTI Program Office, “Metrics Report,” as of March 31, 2008



Figure 1. Number of FTI Planned Services Have Fluctuated Over Time

In the December 2004 FTI plan, there were 25, 294 planned FTI services. In the
August 2006 FTI plan (the current plan), there are 20, 033 planned FTI services.
In the March 2008 FTI master schedule, there are 22, 719 planned FTI services.

Source: OIG analysis of FTI current versus prior baseline schedules and the FTI
master schedule
Table 4. FTI Network Engineering Cost Growth Charged to FTI Operations
Account

 • FTI Contract Modification 4 (dated April 27, 2004) estimated network
   engineering costs for fiscal year 2004 at $2,231,090. FTI Contract
   Modification 12 (dated November 20, 2006) estimated network engineering
   costs for fiscal year 2004 at $4,401,683. This represents a cost growth of
   $2,170,593—a 97 percent increase.

 • FTI Contract Modification 4 (dated April 27, 2004) estimated network
   engineering costs for fiscal year 2005 at $2,305,557. FTI Contract
   Modification 12 (dated November 20, 2006) estimated network engineering
   costs for fiscal year 2005 at $12,761,781. This represents a cost growth of
   $10,456,224—a 454 percent increase.

 • FTI Contract Modification 4 (dated April 27, 2004) estimated network
   engineering costs for fiscal year 2006 at $2,282,499. FTI Contract
   Modification 12 (dated November 20, 2006) estimated network engineering
   costs for fiscal year 2006 at $11,700,000. This represents a cost growth of
   $9,417,501—a 413 percent increase.

 • FTI Contract Modification 4 (dated April 27, 2004) estimated network
   engineering costs for fiscal year 2007 at $1,548,163. FTI Contract
   Modification 12 (dated November 20, 2006) estimated network engineering
   costs for fiscal year 2007 at $15,846,038. This represents a cost growth of
   $14,297,875—a 924 percent increase.

 • FTI Contract Modification 4 (dated April 27, 2004) estimated total network
   engineering costs for fiscal year 2004 through fiscal year 2007 at $8,367,309.
   FTI Contract Modification 12 (dated November 20, 2006) estimated total
   network engineering costs for fiscal year 2004 through fiscal year 2007 at
   $44,709,502. This represents a total cost growth for the 4-year period of
   $36,342,193.

Source: FTI Contract Modifications
Figure 2. FTI Planned Operations Cost Are Declining While the Demand for
FTI Services Is Increasing (Fiscal Year 2009 to Fiscal Year 2012)

Fiscal Year 2009 FTI planned operations costs are $206 million.
Fiscal Year 2010 FTI planned operations costs are $165.4 million.
Fiscal Year 2011 FTI planned operations costs are $152.6 million.
Fiscal Year 2012 FTI planned operations costs are $145.3 million.
Source: FTI Metrics Report and OMB Exhibit 300 (Budget Year 2009)

Table 5. Changes in FTI Cost Savings Estimates in Then-Year and Current-
Year Dollars

FTI Cost Savings (then-year) as calculated in December 2004 are as follows:
Fiscal Year 2003                       -$60.4 million
Fiscal Year 2004                       -$67.5 million
Fiscal Year 2005                       -$131.7 million
Fiscal Year 2006                       -$111.5 million
Fiscal Year 2007                       -$84.9 million
Fiscal Year 2008                       $14.7 million
Fiscal Year 2009                       $67.3 million
Fiscal Year 2010                       $97.8 million
Fiscal Year 2011                       $111.4 million
Fiscal Year 2012                       $129 million
Fiscal Year 2013 through 2017          $708.2 million
Total                                  $672.4 million

FTI Cost Savings (then-year) as calculated in September 2006 are as follows:
Fiscal Year 2003                       N/A
Fiscal Year 2004                       N/A
Fiscal Year 2005                       -$83.1 million
Fiscal Year 2006                       -$133.4 million
Fiscal Year 2007                       -$140.6 million
Fiscal Year 2008                       -$73 million
Fiscal Year 2009                       $39 million
Fiscal Year 2010                       $83.6 million
Fiscal Year 2011                       $105.2 million
Fiscal Year 2012                       $123.9 million
Fiscal Year 2013 through 2017          $674.8 million
Total                                  $596.4 million
FTI Cost Savings (then-year) as calculated by the Office of Inspector General
are as follows:
Fiscal Year 2003                       -$45.4 million
Fiscal Year 2004                       -$97.1 million
Fiscal Year 2005                       -$92.1 million
Fiscal Year 2006                       -$127.1 million
Fiscal Year 2007                       -$157.4 million
Fiscal Year 2008                       -$73 million
Fiscal Year 2009                       $39 million
Fiscal Year 2010                       $83.6 million
Fiscal Year 2011                       $105.2 million
Fiscal Year 2012                       $123.9 million
Fiscal Year 2013 through 2017          $674.9 million
Total                                  $434.4 million

FTI Cost Savings (current-year) as calculated in December 2004 are as
follows:
Fiscal Year 2003                       -$60.4 million
Fiscal Year 2004                       -$67.5 million
Fiscal Year 2005                       -$131.7 million
Fiscal Year 2006                       -$108.5 million
Fiscal Year 2007                       -$77.4 million
Fiscal Year 2008                       $12.8 million
Fiscal Year 2009                       $56 million
Fiscal Year 2010                       $77.6 million
Fiscal Year 2011                       $84.4 million
Fiscal Year 2012                       $93.3 million
Fiscal Year 2013 through 2017          $445.5 million
Total                                  $326.1 million

FTI Cost Savings (current-year) as calculated in September 2006 are as
follows:
Fiscal Year 2003                       $ N/A
Fiscal Year 2004                       $ N/A
Fiscal Year 2005                       -$ 83.1 million
Fiscal Year 2006                       -$ 133.4 million
Fiscal Year 2007                       -$140.6 million
Fiscal Year 2008                       -$ 69.5 million
Fiscal Year 2009                       $35.3 million
Fiscal Year 2010                       $72.2 million
Fiscal Year 2011                       $86.4 million
Fiscal Year 2012                       $97 million
Fiscal Year 2013 through 2017          $455.8 million
Total                                  $320.1 million
FTI Cost Savings (current-year) as calculated by the Office of Inspector General are
as follows:
Fiscal Year 2003                           -$45.5 million
Fiscal Year 2004                           -$97.1 million
Fiscal Year 2005                           -$92.1 million
Fiscal Year 2006                           -$127.1 million
Fiscal Year 2007                           -$157.4 million
Fiscal Year 2008                           -$69.5 million
Fiscal Year 2009                           $35.3 million
Fiscal Year 2010                           $72.2 million
Fiscal Year 2011                           $86.4 million
Fiscal Year 2012                           $97 million
Fiscal Year 2013 through 2017              $455.8 million
Total                                      $158 million

Note: FAA’s calculation of cost savings for the current baseline in 2006 excludes sunk
costs reported in FY 2003 and FY 2004. Our calculations of FTI cost savings for the
current baseline in 2006 include all sunk costs, and we relied on actual costs from 2003 to
2007 to estimate savings.

Source: FTI basis of estimates in 2004 and FTI Program Office cost savings estimates in
2006.

Table 6. Examples of Critical FTI Outages That Disrupted Air Traffic
Control Operations
Chamblee,         05/15/08     3.8 hours      Reason: FTI circuit failure         Caused 41
Georgia                        duration       resulted in loss of multiple        arrival or
                                              services.                           departure
                                                                                  delays
San Diego,         04/12/08    2.2 hours      Reason: Teleco failure resulted     Caused 5
California                     duration       in loss of services.                arrival or
                                                                                  departure
                                                                                  delays
Leesburg,          03/24/08    1.08 hours     Reason: Service between             Caused 60
Virginia                       duration       Washington and Jacksonville         arrival or
                                              failed. No definitive cause has     departure
                                              been identified.                    delays
Merrimack,         12/04/07    1.95 hours     Reason: Cables dislodged from       Caused 49
New                            duration       the patch panel interrupted         arrival or
Hampshire                                     multiple services.                  departure
                                                                                  delays
Jacksonville,      11/09/07    38 minutes     Reason: Inadequate physical         Caused 85
Florida                        duration       diversity resulted in loss of       arrival or
                                              service.                            departure
                                                                                  delays
Memphis,         9/25/07   3 hours      Reason: Inadequate physical    Caused 566
Tennessee                  duration     diversity resulted in loss of  arrival or
                                        service.                       departure
                                                                       delays
Chicago,         5/23/07   3.5 hours    Reason: Improperly configured Caused 77
Illinois                   duration     FTI equipment resulted in loss arrival or
                                        of service.                    departure
                                                                       delays
Los Angeles,     3/30/07    5 minutes   Reason: Display services       Caused 25
California Air              duration    interrupted during FTI         arrival or
Traffic Control                         troubleshooting.               departure
Tower                                                                  delays
Salt Lake, Utah  1/09/07    3 hours     Reason: FTI maintenance        Caused 92
Air Route                   duration    supervisor failed to follow    arrival or
Traffic Control                         established procedures.        departure
Center                                                                 delays
Orlando,        12/11/06 1.3 hours      Reason: Improper configuration Caused 63
Florida                     duration    caused loss of service.        arrival or
Air Route                                                              departure
Traffic Control                                                        delays
Center
San Juan,       12/04/06 20 hours       Reason: Underwater cable cut    Caused 60
Puerto Rico                 duration    caused loss of service.         arrival or
Combined En-                                                            departure
Route and                                                               delays
Approach
Atlanta,        09/28/06 1.25 hour      Reason: Defective equipment     Caused 8
Georgia                     duration    caused the loss of multiple     arrival or
Air Traffic                             services.                       departure
Control Tower                                                           delays
Source: FAA National Operational Command Center Reports
 Exhibit C. Total Planned FTI Services Distribution by Assigned Reliability-
 Maintainability-Availability (RMA) Level

        Example of Services : Radar, Wide Area          Number of Services   Percent of
RMA1
        Augmentation System (WAAS)                      Planned: 202         Total: 1%


        Example of Services : Interphone, Air Traffic   Number of Services   Percent of
RMA2
        Control Computer Circuits                       Planned: 1331        Total: 6%


        Example of Services : Flight and Weather        Number of Services   Percent of
RMA3
        Data, Air Traffic Management                    Planned: 883         Total: 4%


     Example of Services : En Route Air to
                                                        Number of Services   Percent of
RMA4 Ground Communication, Remote
                                                        Planned: 16,400      Total: 75%
     Maintenance Monitoring


     Example of Services : Automated Surface
                                                        Number of Services   Percent of
RMA5 Observing Systems (ASOS) Weather Sensor,
                                                        Planned: 1999        Total: 9%
     High Capacity (T1) Circuits


                                                        Number of Services   Percent of
RMA6 Example of Services : FTI Mission Support
                                                        Planned: 820         Total: 4%

                                                        Number of Services   Percent of
RMA7 Example of Services : FTI SAT
                                                        Planned: 236         Total: 1%


Total number of services planned: 21,871.

 Note 1: RMA 1-3 Diverse: dual path implementation, RMA 4-5 Avoided: single
 path implementation.

 Note 2: Total of 21,871 represents FAA planned services by RMA levels, while
 the 22,719 services we note throughout the report represent estimates to
 completion at a given point in time.
